NO. 20-55

In The
SUPREME COURT OF THE UNITED STATES

WILLIAM A. ANDERSON,

Petitioner,
V.
AMERICAN GENERAL INSURANCE,
d/b/a MG LIFE AND RETIREMENT

Respondent.

ON PETITON FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT

REPLY BRIEF IN SUPPORT OF
CERTIORARI

WILLIAM A. ANDERSON
PETITIONER — PRO SE
MAILING: P.O. BOX 311872
NEW BRAUNFELS, TX 78131
T: (912) 441-1063

TABLE OF CONTENTS
TABLE OF AUTHORITIES

ii

INTRODUCTION AND SUMMARY OF ARGUMENT

1

ARGUMENT

2

MG AND THE LOWER COURTS FAIL TO REFUTE THE MOST
SUBSTANTIAL CONSTITUTIONAL DUE PROCESS VIOLATION
OF THE ARBITRATOR

2

THE MAIN ISSUE PRESENTED IS NOVEL AND WILL PREVENT
CONSTITUIONAL UNCERTAINTY FOR YEARS TO COME

9

THE COURT'S REVIEW IS WARRANTED AND THIS CASE IS AN
IDEAL VEHICLE TO ADDRESS AN IMPORTANT QUESTION

10

CONCLUSION

11

TABLE OF AUTHORITIES
Page(s)
Cases:
Ash v. Tyson Foods, Inc.,664 F.3d 883 (11th Cir. 2011)
Kolstad v. Am. Dental Ass'n,
527 U.S. 526, 119 S. Ct. 2118, 144 L. Ed. 2d 494 (1999)
Miller v. Ken worth of Dothan, Inc., 277 F.3d 1269 (11th Cir. 2002)

6

..6
7

Miller v. Pate, 386 U.S. 1, 7 (1967).

11

Mooney v. Holohan, 294 U.S. 103, 112 (1935)

10

Spriggs v. Mercedes Benz USA, LLC CV 213-051 (S.D. Ga. Apr. 26, 016)

8

Federal Statutes
9 U.S.C. § 10(a)
9 U.S.C. § 10(a)(3)
42 U.S.C.A. § 1981
Title VII

1,2,4
3,9
6,7
6,7

ii

INTRODUCTION AND SUMMARY OF ARGUMENT
AIG's brief in opposition does not try to challenge the core contention of
Anderson's petition: That prior to her final ruling, Arbitrator Patricia Renovitch
was made aware of fabricated false evidence identified as testimony from a witness
as well as other misbehaviors she was committing via her Interim Award. That
testimony was non-existent throughout the entire arbitration process and she went
on to intentionally use that fabricated false evidence to rule against a claim of the
Petitioner, thereby committing behavioral misconduct by violating his due process
rights worthy of vacatur under 9 U.S.C. § 10(a). Petitioner has not asked the Court
to upset an arbitrator's fact-finding. Petitioner has clearly stated multiple times
that he has not argued that the arbitrator made evidentiary and procedural errors
covered by the very broad fact-finder and clear error protection afforded to
arbitrators. Petitioner instead has maintained that the arbitrator's deliberate
actions were multiple acts of behavioral misconduct and violation of constitutional
due process law to protect MG from punishment.
In its Brief in Opposition, MG misrepresents what Petitioner presented in
the Petition for a Writ of Certiorari, Petitioner did not concede that there was no
circuit split on the issues on appeal because it is not the issues on appeal that the
Petitioner spoke of. What the Petitioner clearly spoke on was concerning Supreme
Court established precedent for the issue of punitive damages and that the circuits
are not split on those guidelines; guidelines which the Eleventh Circuit allowed the
arbitrator to thwart in order to protect MG from punishment. MG goes on to state

1

that the Petition does not cite a single case from this Court concerning the issues
raised on appeal. This case's issues are novel and will establish a precedent that
will affect the judicial system nationwide, if not worldwide for many years to come.
Despite AIG's contention that petitioner is trying to get certiorari granted on
error, that is not the case. Certiorari is appropriate because petitioner's objections
are both constitutional and exceptionally unique and not based on fact-finding or
fact-finder error and the relevance of this novel case and its effect on the public goes
well beyond just this particular case.
ARGUMENT
I. MG AND THE LOWER COURTS FAIL TO REFUTE THE MOST
SUBSTANTIAL CONSTITUTIONAL DUE PROCESS VIOLATION OF THE
ARBITRATOR
In their opposition brief and in every other reply brief by MG, including
orders from the U.S. District Court for Southern Georgia and the Eleventh Circuit
Court, they continually circumvent and ultimately fail to refute the most
substantial reason for finding that the Arbitrator was guilty of misbehavior within
the scope of misconduct allowed under 9 U.S.C. § 10(a). In particular, that falsified,
fabricated, non-existent testimonial evidence was used to create a bias favoring the
defendant and detrimental to the plaintiff were revealed in the Arbitrators Interim
Award issued on December 5, 2018. This and other assertions were brought to the
attention of that Arbitrator in writing in a Request for Reconsideration on January
10, 2019. That same Arbitrator, who deliberately disregarded those assertions,
went on to use that false, non-existent, fabricated evidence against the Plaintiffs

2

position in her Final Award nearly 2 weeks later on January, 22 2019. Some of the
other misbehaviors of the Arbitrator were presented to this court and they simply
compound the overall misconduct the Arbitrator exhibited to allow AIG to go
unpunished for racial discrimination and retaliation.
In its opposition brief, MG spoke to the broad difference afforded to
arbitrators. The petitioner is fully aware of the broad difference afforded
arbitrators as well as the broad relief from evidential and fact-finding errors. In
contrast to what the Respondent claims, Petitioner does not seek to undermine the
role the federal courts play in reviewing arbitration proceedings. The petitioner is
pointing out a violation of constitutional due process as well as other acts of
misconduct that falls well within the realm of vacating an arbitrator's Final Award
under 9 U.S.C. § 10(a)(3); especially in this case when an officer of the court
knowingly uses false evidence that was non-existent and fabricated.
MG, the federal courts, and the Eleventh circuit could easily destroy
Petitioner's most substantial claim with one fluid motion by simply pointing out in
the record the testimonial evidence the Arbitrator claimed Tom Gallo testified; of
which she used to deny one of Petitioner's claims. Petitioner's argument would be
demolished, instead MG wants to convince this honorable court to not do factual
judicial review of the Interim Award and simply take the lower courts' word and
lump this misconduct under the broad protection of fact-finding error afforded to
Arbitrators as the Eleventh Circuit Court has done.

3

In its opposition brief, MG continually refers to the fact-finding and clear
error defense that the lower courts attempt to establish to cover most of the
Arbitrator's misconduct accusations. MG further attempts to convince this
honorable court as to how any claims associated with fact-finding does not satisfy
any of the grounds under 9 U.S.C. § 10(a). If it was simply a fact-finding issue, that
may very well be true and it would be in the best interest for the defendant that the
circuit court and district court find that the false, non-existent fabricated evidence
that was utilized would fall under fact-finder error. However, that contention is
flawed in that the fact-finding and clear error protection is normally applied after
the Arbitrator's Final Award is issued and the parties discover the discrepancies for
the first time. This was most damning and fatal to the arbitrator because once that
false evidence utilization was brought to the arbitrator's attention prior to her Final
Award and she disregarded the discovery, it was no longer fact-finder error, but
instead it was a deliberate due process violation and therefore an act of misconduct.
The Arbitrator was fully aware that she was making a ruling based on false,
non-existent, fabricated evidence and that utilization was not in error. MG has had
multiple opportunities to point to the testimonial evidence in the record to prove
that it exists, but they did not because they could not. MG would instead want this
honorable court to continually call it 'fact-finder's error when in fact it was pointed
out to both the Arbitrator and the defendant as fabricated false evidence well in
advance of the Arbitrator's Final Award and MG knew the fabrication helped their
weak case so they said nothing.

4

Although this is a Civil Proceeding, fabricated evidence is clearly identified
as a constitutional violation in Criminal Proceedings under multiple Constitutional
Amendments. This case will be considered unique in that Arbitrator Renovitch was
made aware of fabricated evidence in time to avoid using it in her ruling and did
not, instead continued on with it in an act of deliberate misconduct.
In opposition, AIG regurgitates the eleventh circuit's contending that
Petitioner's claim of false evidence being used was not preserved because it had not
been brought up before the District Court is totally without Merit. The case record
clearly shows it was brought up to the Arbitrator in the Request for Reconsideration
and then to the District Court in the motion to vacate. In fact, the District Court
clearly acknowledged the false evidence claim in its published order on March, 19
2019. Pet. App. B-17. AIG and the lower court's desperate attempt to isolate and
focus on the word "collected" as a preservation error is extremely unavailing.
MG claims in its Brief in Opposition that petitioner failed to cite any cases
pertaining to established Supreme Court guidelines concerning punitive damages
and therefore those guidelines are not relevant as Petitioner referred to their
utilization in the Third Circuit. Petitioner disagrees; in fact it was the Arbitrator
and the District Court who brought up and identified the Supreme Courts holding
to those established precedents. The lower courts problem is that the guidelines
they outlined where met by the Petitioner and blatantly misapplied by the
Arbitrator and subsequently misconstrued by the courts to defend the Arbitrator's
deliberate misapplication of those guidelines to protect MG from punishment.

5

Again, in its Brief in Opposition, MG attempts to misguide this court when
they claim that the arbitrator actually determined that Petitioner had not met his
prima facie burden of establishing the requisite malice. That is not true. Plaintiff
properly argued that his request for punitive damages should have been allowed if
the Arbitrator had followed Supreme Court held precedents as those guidelines
were clear and that all the circuits were in agreement with those guidelines. See.
Kolstad v. Am. Dental Ass'n, 527 U.S. 526, 536-37 (1999). In the Interim Award,
Plaintiff identified to the lower courts where the Arbitrator in her award rendering
had established that the Plaintiff had established a prima facie burden and found
the respondent Guilty of Racial Discrimination with reckless indifference. See. Ash
v. Tyson Foods,. Inc., 664 F.3d 883, 900 (11th Cir. 2011). The arbitrator went on to
proclaim that MG was put on notice of the discrimination described in detail and
they had the opportunity and ability to investigate and remedy the discriminatory
act, but MG took no action. Pet. App. D-22.
After stating how MG was put on notice and took no action, Arbitrator
Renovitch went on to state in direct contradiction to her own finding that:
Upon consideration of the entire record, the preponderance of the
competent and substantial evidence does not prove AIG's upper management
(Benton, Parman and Luckett) knew about or supported Gallo's
discriminatory treatment of the black applicants, including Claimant, during
the SM promotion contest. While Gallo may have acted with reckless
indifference to Claimant's Section 1981 and Title VII rights during the
pretextual SM promotion contest, the record does not show upper
management did. Accordingly, punitive damages are not awarded. Id. at D26.

6

The Supreme Court's holdings on punitive damages are not that vague or
sticky, AIG was put on notice so they knew about Gallo's discriminatory treatment
against the blacks and did nothing. The guidelines do not say that any particular
person in upper management had to act with the same reckless indifference as the
offender, only that higher management countenanced or approved his behavior. At
this point, the Supreme Court's held precedence clearly required that MG needed to
have asserted an affirmative good faith defense towards Gallo's behavior in order to
avoid punitive damages. They had not, but the Arbitrator asserted a punitive
damage defense on AIG's behalf.
MG and the lower courts are ignoring the fact that the arbitrator's ruling
found MG guilty under both 42 U.S.C.A. § 1981 and Title VII for racial
discrimination and that the plaintiff met that burden. She found that Tom Gallo,
who was a part of senior management, acted with reckless indifference and
explained in her findings that when MG leadership was put on notice, they did
nothing to correct the Discrimination when they became aware. See. Miller v.
Ken worth ofDothan, Inc., 277 F.3d 1269, 1280 (11th Cir. 2002)
After seeing the Interim Award and realizing the misconduct the Arbitrator
was attempting, Petitioner submitted a Request for Reconsideration to give her an
opportunity to relent from such a course of action. In the request for
reconsideration the Petitioner addressed in detail the utilization of false evidence
and directly challenged the good faith defense the Arbitrator asserted on AIG's
behalf', pointed out multiple pieces of ignored evidence submitted in writing, emails,

7

and testimony where Senior Management signed off on the contest's manipulated
numbers and more. Knowing that the Petitioner had met all Supreme Court
guidelines, and being made aware of the fabricated evidence and other issues, the
arbitrator still refused to act on those red flags and issued her Final Award denying
punitive damages and protecting MG. Therefore, just as cited in the Petition for
Certiorari concerning her ruling in Spriggs v. Mercedes Benz USA, LLC, CV 213051 (S.D. Ga. Apr. 26, 2016), the District Court should have known that the
arbitrator, had in fact, established that the petitioner met the burden of substantial
evidence warranting punitive damages, but instead took actions to protect MG.
This is another dear example of the arbitrator's misconduct bias of finding a reason
to help MG get away with racial discrimination without punishment or reprimand.
MG in its Brief of Opposition claims that Petitioner is suggesting that the
arbitrator entered into a binding contract (or, at a minimum, an enforceable
promise) to apply a "preponderance of evidence" standard. That is true. The
recorded trial itself details what she agreed to and then changed her position in her
Interim Award without notifying the petitioner and that change was a bias which
favored MG. In the Request for Reconsideration stemming from that Interim
Award, the Petitioner identified in detail the use of fabricated evidence and also the
ignoring of overwhelming evidence presented by the Petitioner for the other claims.
Again, the most damning violation being the Petitioner asking the arbitrator
to reconsider utilizing that fabricated evidence as a non-discriminatory reason to
deny one of the Petitioners claims. Even when faced with all the other

8

Again, although this is a civil proceeding, in criminal proceedings the Court
has said that the use of fabricated evidence is a practice that the Constitution
"cannot tolerate," Miller v. Pate, 386 U.S. 1, 7 (1967). It should not be tolerated in
civil arbitration proceedings either.
The other two questions in the petition notwithstanding, the question
looming: is intentionally utilizing fabricated evidence by an officer of the court
considered misconduct; especially when in arbitration situations where the
arbitrator is made aware of that fabricated evidence prior to their final ruling? In
that scenario, is this constitutional violation protected under the broad protection
afforded to arbitrators from fact-finding error once their Final Awards have been
issued or does a party presenting itself before an arbitrator forfeit the fundamental
rights of constitutional justice?
CONCLUSION
For the foregoing reasons, and those discussed in the petition for writ of
certiorari, the petition should be granted.

Respectfully submitted,
William A. Anderson
Petitioner, Pro Se
P.O. Box 311872
New Braunfels, TX 78131
(912) 441-1073
1voice4justice@gmail.com

11

